               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




       Fiscal Year 2013 Postal Service
        Financial Statements Audit –
       San Mateo Accounting Services
                       Audit Report




                                              May 28, 2014

Report Number FT-AR-14-010
                                                                           May 28, 2014

                                                     Fiscal Year 2013 Postal Service
                                                        Financial Statements Audit –
                                                     San Mateo Accounting Services

                                                         Report Number FT-AR-14-010



BACKGROUND:
U.S. Postal Service San Mateo                In addition, it complied with laws having
Accounting Services is responsible for       a direct and material effect on the
accounting functions related to accounts     statements. Finally, the Financial
payable, centralized postage payments,       Testing Compliance group properly
capital property, motor vehicles, and        tested, documented, and reported its
supply inventory. The Postal Service’s       examination of key financial reporting
Financial Testing Compliance group           controls.
examines key financial reporting
controls.                                    We did not propose any adjustments;
                                             however, we identified the need to
Our objectives were to determine             improve key controls established to
whether San Mateo Accounting                 ensure that contractor payments are
Services:                                    correct and capital property is properly
                                             recorded. Specifically, we identified
   Accounting transactions were fairly      deficiencies related to inaccurate
    stated, and selected controls were       contract labor rates in two of 25 invoices
    designed and operating effectively.      we reviewed and inaccurate capital
                                             property reviews. These issues resulted
   Ensured account balances followed        in more than $9,000 in contract
    the Postal Service’s general             overpayments, misclassification of
    classification of accounts consistent    nearly 8,000 potentially obsolete assets,
    with that of the previous year.          and about $3 million in data integrity
                                             issues for fiscal year 2013.
   Complied with laws having a direct
    and material effect on the financial     WHAT THE OIG RECOMMENDED:
    statements taken as a whole.             We recommended management
                                             implement a control to verify and collect
We also determined whether the               correct contract data entered into the
Financial Testing Compliance group           contract labor system prior to payment.
properly tested, documented, and             Also, we recommended management
reported key financial reporting controls.   revise testing and reinforce procedures
                                             for the semi-annual capital property
WHAT THE OIG FOUND:                          reviews, modify the report and
San Mateo Accounting Services’               instructions to include additional data for
accounting transactions were fairly          the review, and remove obsolete assets
stated and account balances conformed        from inventory.
to the general classification of accounts.   Link to review the entire report
May 28, 2014

MEMORANDUM FOR:            SCOTT G. DAVIS
                           ACTING VICE PRESIDENT, CONTROLLER

                           JOHN T. EDGAR
                           VICE PRESIDENT, INFORMATION TECHNOLOGY

                           SUSAN M. BROWNELL
                           VICE PRESIDENT, SUPPLY MANAGEMENT




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial and Systems Accountability

SUBJECT:                   Audit Report – Fiscal Year 2013 Postal Service Financial
                           Statements Audit – San Mateo Accounting Services
                           (Report Number FT-AR-14-010)

This report presents the results of our audit of selected financial activities and
accounting records at U.S. Postal Service Accounting Services in San Mateo, CA, for
the fiscal year ended September 30, 2013 (Project Number 13BM003FT000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Michelle V. Lindquist, acting
director, Finance, or me at 703-248-2100.

Attachment

cc: Julie S. Moore
    Corporate Audit and Response Management
Fiscal Year 2013 Postal Service Financial Statements Audit –                                                       FT-AR-14-010
 San Mateo Accounting Services



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Contract Labor Rates ...................................................................................................... 2

Capital Property Reviews ................................................................................................ 3

Property and Equipment Accounting System Assets ...................................................... 6

Recommendations .......................................................................................................... 6

Management’s Comments .............................................................................................. 7

Evaluation of Management’s Comments ......................................................................... 8

Appendix A: Additional Information ................................................................................. 9

   Background ................................................................................................................. 9

   Objectives, Scope, and Methodology ........................................................................ 10

   Prior Audit Coverage ................................................................................................. 12

Appendix B: Other Impacts ........................................................................................... 14

Appendix C: Management’s Comments ........................................................................ 15
Fiscal Year 2013 Postal Service Financial Statements Audit –                                         FT-AR-14-010
 San Mateo Accounting Services


Introduction

This report presents the results of our audit of selected financial activities and
accounting records at U.S. Postal Service Accounting Services in San Mateo, CA, for
the fiscal year (FY) ended September 30, 2013 (Project Number 13BM003FT000).

The Postal Reorganization Act of 1970, as amended, requires annual audits of the
Postal Service’s financial statements. In addition, the Sarbanes-Oxley (SOX) law was
enacted in 2002 to strengthen public confidence in the accuracy and reliability of
financial reporting. Section 404 of SOX requires management to state responsibility for
establishing and maintaining adequate internal controls over financial reporting. The
Postal Accountability and Enhancement Act of 2006 requires the Postal Service to
comply with Section 404 of SOX. The Postal Service Board of Governors (Board)
contracted with an independent public accounting firm (IPA) to express opinions on the
Postal Service’s financial statements and internal controls over financial reporting. Our
audit augments the IPA's opinion. 1 See Appendix A for additional information about this
audit.

Conclusion

During our audit of San Mateo Accounting Services, we noted:

   Accounting transactions were fairly stated in the general ledger, and selected key
    controls 2 surrounding those transactions were designed and operating effectively.

   General ledger account balances conformed with the general classification of
    accounts of the Postal Service on a basis consistent with that of the previous year.

   The Postal Service complied with laws and regulations having a direct and material
    effect on the financial statements taken as a whole.

Finally, the Financial Testing Compliance (FTC) group properly tested, documented,
and reported its examination of key financial reporting controls. We did not propose any
adjustments or identify any issues that were material to the financial statements or that
would affect the overall adequacy of internal controls. However, throughout the year, we
tested internal controls over financial reporting and found the need to improve key
controls established to ensure contractor payments were made in the correct amount
and capital property was properly recorded. Specifically, we identified control
deficiencies 3 related to inaccurate contract labor rates in two of 25 invoices we reviewed

1
  The IPA maintains overall responsibility for testing and reviewing significant San Mateo Accounting Services
accounts and processes. The U.S. Postal Service Office of Inspector General (OIG) coordinated audit work with the
IPA to ensure adequate coverage.
2
  A key control is designed to prevent or detect financial statement misstatements.
3
  A control deficiency exists when the design or operation of a control does not allow management or employees, in
the normal course of performing their assigned functions, to prevent or detect and correct misstatements timely.
                                                             1
Fiscal Year 2013 Postal Service Financial Statements Audit –                                           FT-AR-14-010
 San Mateo Accounting Services


and inaccurate capital property reviews. As a result, we identified nearly 8,000
potentially obsolete assets in the Property and Equipment Accounting System (PEAS), 4
contract overpayments of over $9,000, and $3 million in data integrity issues. 5

In addition, the IPA identified control deficiencies affecting San Mateo Accounting
Services that were not in the scope of our audit and are not contained in this report. The
IPA informed management of these issues on November 1, 2013.

Contract Labor Rates

The key controls established to ensure Program Cost Tracking System (PCTS)6
payments are made in the correct amount were not always effective. We identified two
of 25 PCTS invoices with inaccurate labor rates. 7 This occurred because another
control, not established as key, was not functioning properly to ensure that personnel
correctly entered labor rates into PCTS. Specifically, reviewers did not detect an
incorrect labor rate for one contractor or use Postal Service contract information to
validate the labor category; rather, the reviewer contacted the vendor for the data. As a
result, the Postal Service overpaid two contractors $9,450. We identified a similar issue
in our FY 2011 financial statements audit. 8

The Postal Service has at least three key controls in place to ensure contractor
payments are made in the correct amount:

   PCTS will not process the invoice for payment without approval of the time and
    deliverables.

   The program manager or other authorized timecard approver validates and
    approves contractor time in PCTS.

   PCTS automatically generates invoices based on the contract information initially
    entered by the contracting officer representative in PCTS and weekly PCTS
    timecards approved by a program manager or other authorized timecard approver.

The Postal Service also requires a secondary reviewer to verify that correct labor rates
are entered into PCTS before it issues a payment; however, this is not considered a key
control. During our audit, we found one case where this secondary review did not
identify an incorrect rate. If the Postal Service established the secondary review as a




4
  Records capital property transactions, including asset additions, adjustments to existing assets, disposals or
retirements, and asset transfers between Postal Service locations.
5
  The undepreciated value for these assets was about $48,000 as of February 2013.
6
  Tracks information technology deliverables, services, chargeback labor costs, and capital costs to internal Postal
Service customers.
7
  Each invoice can consist of multiple labor rates. The 25 invoices reviewed contained 76 labor rates. Two of the 76
labor rates were incorrect.
8
  See Prior Audit Coverage section of this report.


                                                          2
Fiscal Year 2013 Postal Service Financial Statements Audit –                                               FT-AR-14-010
 San Mateo Accounting Services


key control, input of labor rates in PCTS would get additional attention during SOX
reviews to help ensure the Postal Service is paying the correct amounts. 9

Having accurate labor rates and labor categories, as part of a collective suite of
contracting controls, mitigates the Postal Service’s risk of overpaying or underpaying its
contractors. As a result of our audit, management corrected the labor rate and labor
category in PCTS and took corrective action to recover the $9,450 in overpayments.

Capital Property Reviews

We tested the capital property key control 10 and found the Postal Service needs to
improve its review and testing of the control. As part of its key SOX control testing,
management did not identify any deficiencies with the capital property reviews. Its
control testing included desk reviews to verify whether the February 2013 Semi-Annual
Capital Property Certification Reports 11 were completed and had proper signatures. We
initially performed the desk review procedures for 10 sites and agreed with
management’s control test results; however, we looked more thoroughly at the test
procedures for those 10 sites and expanded our review to include six additional sites. 12
As shown in Table 1, we identified issues for 122 of the 275 capital property assets13
reviewed at eight of the 16 sites.




9
  As a key control is designed to prevent or detect financial statement misstatements, management conducts ongoing
testing of these controls to ensure they are functioning as intended. A control not considered key may or may not be
tested on an ongoing basis. In this case, we believe ongoing testing of this control will help reduce the risk of financial
statement misstatements.
10
   This control (Key Control 308CA37) requires a material accountability officer (MAO) or designee to indicate
whether he or she found equipment listed on the semi-annual capital property certification report. The report is
annotated accordingly, and the MAO signs off on it.
11
   The reports listed the assets selected for the February 2013 semi-annual capital property review. Management
selects one-eighth of the assets for review semi-annually.
12
   See the Objectives, Scope, and Methodology section of this report for the 16 sites and our expanded test
procedures. We reviewed 275 capital property assets, with total acquisition costs of $11.7 million.
13
   Some of the assets included automated file systems, contract postal unit counters, and telephone systems.


                                                            3
      Fiscal Year 2013 Postal Service Financial Statements Audit –                                            FT-AR-14-010
       San Mateo Accounting Services



                              Table 1: OIG Capital Property Review Exceptions

                          OIG                          OIG and
                         Found           Postal         Postal
                         Assets         Service        Service                                           Assets
                         but the         Found         Unable                                          Recorded
                         Postal         Assets            to            Missing         Missing            as
      Postal             Service        but OIG        Locate           Disposal        Transfer       Disposed          Total
  Service Sites          Did Not        Did Not        Assets            Forms           Forms          in PEAS         Assets
 Capital
 Customer
 Service District
 (CSD) 14                          -               -                3              2               -                -         5
 Chicago
 Processing
 and
 Distribution
 Center
 (P&DC)                            -               -                -              -              1                 -         1
 Colorado/
 Wyoming CSD                       -              2             29                 2               -                -         33
 Connecticut
 Valley CSD                        1               -                7              3              1                 -         12
 Eastern Law
 Office                            -               -                -              -              1                 -         1
 Public
 Relations &
 Promotions
 Office 15                         -               -            58                 -               -                -         58
 San Diego
 CSD                               2              1                 -              -              2                2          7
 Western
 Pennsylvania
 CSD                               4              1              -                 -              -                -           5
 Total                             7              4             97                 7              5                2         122
Source: OIG site verification and February 2013 Semi-Annual Capital Property Certification Report analysis.


      These issues occurred because Postal Service personnel:

          Relied on incorrect asset verification information from other employees.
          Incorrectly marked the assets as “found.”

      14
         We were unable to confirm the accuracy of the PEAS records at this site because the equipment did not have
      asset identification labels.
      15
         We were unable to confirm the accuracy of the PEAS records because no capital equipment was at this site.
      Personnel stated the assets were obsolete and should be removed from PEAS.


                                                                4
Fiscal Year 2013 Postal Service Financial Statements Audit –                                         FT-AR-14-010
 San Mateo Accounting Services



    Misidentified the assets.
    Did not receive the assets’ identification labels.
    Were unaware of procedures for acquiring replacement asset identification labels.
    Were unaware of the assets’ locations.
    Were unaware of property transfer or disposal requirements.

Additionally, the asset locations or descriptions on the February 2013 Semi-Annual
Capital Property Certification Reports were inaccurate or insufficient.

Some of the issues our additional testing found could be prevented by modifying the
semi-annual capital property certification report and instructions. Specifically, requiring
MAOs to note whether assets require disposal or transfer forms would serve as a
reminder to complete the forms when necessary. Additionally, requiring MAOs to note
asset locations and provide more detailed descriptions, such as the equipment’s make,
model, or serial number, would prompt Postal Service personnel to update PEAS
records, which would ease asset identification in future semi-annual reviews. Lastly,
requiring personnel to certify their understanding of policies and instructions would
serve as a reminder to review them before performing the semi-annual capital property
reviews.

Postal Service policy 16 requires personnel who perform semi-annual capital property
reviews to ensure that capital property records are accurate. It also requires personnel
to process all receipts, transfers, and disposals timely. Management’s control test
procedures for review of the semi-annual capital property certification report for proper
signatures are insufficient evidence to support the control's effectiveness. 17 Testers
should also verify the report demonstrates a reasonable review of the capital property
itself.

Our additional control testing identified inaccurate, incomplete, and unverified records
for 122 assets in PEAS. As a result of our audit, Postal Service personnel took
corrective action to transfer, retire, or reinstate 70 assets. The PEAS records for
28 assets were unchanged as of January 8, 2014. As a result of the Postal Service’s
capital property review process, personnel recorded the remaining 24 assets 18 as
“disposed” in PEAS because they were marked as “not found” on the February 2013
Semi-Annual Capital Property Certification Report.

These issues do not have a material effect on the overall financial statements. However,
the capital property review process is critical to the accuracy of PEAS records. Proper
performance of internal controls aids in accurate reporting of capital property in the
financial statements. Further, accurate, complete, and valid data in PEAS can enhance

16
   Handbook AS-701, Material Management, Section 532, dated April 2012.
17
   Public Company Accounting Oversight Board (PCAOB), Staff Audit Practice Alert No. 11, Consideration for Audits
of Internal Control Over Financial Reporting, dated October 24, 2013.
18
   Personnel were unable to locate 17 of the 24 assets because the reports did not contain sufficient asset
information. Additionally, personnel did not mark the remaining seven assets as “found” on the reports and did not
complete disposal forms for these assets.


                                                         5
Fiscal Year 2013 Postal Service Financial Statements Audit –                                      FT-AR-14-010
 San Mateo Accounting Services


management’s decisions regarding capital property. Therefore, the inaccuracy of the
PEAS records for 122 assets caused data integrity errors of $1.1 million 19 in acquisition
costs. See Appendix B for other impact.

Property and Equipment Accounting System Assets

We reviewed the capital property records in PEAS and identified 7,943 potentially
obsolete assets, including:

    205 stamp vending machines.
    166 multi-commodity vending machines. 20
    2,750 point-of-service machines.
    1,152 mini computers, acquired before FY 2000.
    3,670 micro-computer systems, acquired before FY 2000.

Postal Service personnel stated the vending machines should have been physically
removed and retired a few years ago; therefore, the inaccuracy of the PEAS records for
371 vending machines caused data integrity errors of $1.9 million 21 in acquisition costs.
See Appendix B for other impact. Postal Service personnel also stated that some sites
still have the old point-of-service machines, although plans have been under way since
FY 2011 to retire and replace them with non-capital machines. Industry practice is to
replace computers every 3-5 years and these computers are over 14 years old.

As a result of our inquiries, the Postal Service initiated corrective actions to retire all the
vending machines in PEAS and to monitor and retire the point-of-service machines as
appropriate. Removing obsolete assets from PEAS would prevent the Postal Service
from using resources during the semi-annual capital property reviews to research
assets that are no longer in use or no longer exist.

Recommendations

We recommend the acting vice president, Controller, in coordination with the vice
president, Information Technology:

1. Implement as a key control the secondary review verifying correct data is entered
   into the Program Cost Tracking System, including labor rates and categories, before
   the system makes payment.

2. Develop and implement procedures to use Postal Service contract information to
   assign labor categories in the Program Cost Tracking System rather than using
   information provided by the vendor.


19
   The undepreciated value for the 122 assets is about $48,000 as of February 2013.
20
   Multi-commodity vending machines are self-service vending machines that contain stamps, envelopes, and
postcards.
21
   The vending machines were fully depreciated as of August 2013.


                                                       6
Fiscal Year 2013 Postal Service Financial Statements Audit –                  FT-AR-14-010
 San Mateo Accounting Services


We recommend the vice president, Supply Management:

3. Modify the Semi-Annual Capital Property Certification Report and instructions to
   note whether transfer or disposal forms were completed for assets found, to note the
   asset locations and detailed descriptions of capital property located at the site, and
   to require personnel to certify they understand the capital property review policies
   and instructions.

4. Reinforce semi-annual capital property review and asset identification label
   acquisition procedures.

5. Research and remove obsolete capital property, as appropriate, from the Property
   and Equipment Accounting System.

We recommend the acting vice president, Controller:

6. Revise semi-annual capital property review control test procedures to ensure proper
   asset verification and completion of required disposal and transfer forms.

Management’s Comments

Management generally agreed with the findings and recommendations. Management
disagreed with $1.9 million of data integrity for the 371 vending machines because the
assets were correctly identified in the PEAS and physically accounted for in inventory.

Regarding recommendation 1, management will assess controls over contract set-up in
PCTS. Management plans to complete this action by September 30, 2014; however,
they will not implement the remediation plan if they determine the associated cost
outweighs the risk.

Regarding recommendation 2, management will implement a procedure for using the
published price proposal from the Contract Authoring Management System (CAMS) to
assign labor categories in PCTS. Management plans to complete this action by
June 30, 2014.

Regarding recommendation 3, management will modify the Semi-Annual Capital
Property Certification Report and the report instructions to include the recommended
items. Management plans to complete this action by August 31, 2014.

Regarding recommendation 4, management will reinforce the importance of the reviews
and the identification label acquisition procedures through publications and training.
Management plans to complete this action by August 31, 2014.

Regarding recommendation 5, management will research and remove obsolete retail
vending equipment, micro-computer systems, and point-of-service equipment from the
PEAS. Management plans to complete this action by October 31, 2014.



                                                     7
Fiscal Year 2013 Postal Service Financial Statements Audit –                 FT-AR-14-010
 San Mateo Accounting Services



Regarding recommendation 6, management will assess the design of the capital
property review control and enhance the test procedures. Management plans to
complete this action by August 31, 2014.

See Appendix C for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report. Regarding
recommendation 5, the asset records in PEAS were inaccurate because the vending
machines were physically removed from the field and retired; therefore, personnel
would not have been able to physically account for the vending machines as part of the
Postal Service’s inventory. We reported $1.9 million as other impact and categorized it
as data integrity as opposed to one of the more elevated categories under monetary
impact.




                                                     8
Fiscal Year 2013 Postal Service Financial Statements Audit –                                        FT-AR-14-010
 San Mateo Accounting Services


                                Appendix A: Additional Information

Background

San Mateo Accounting Services is one of the Postal Service’s three accounting
services 22 and includes, as part of its functions, centralized accounting and
disbursements. Its employees are responsible for accounts payable, 23 centralized
postage payments, 24 capital property, motor vehicles, and supply inventory. The
Postal Service’s FTC group examines key financial reporting controls.

To verify the capital property inventory, the Postal Service selects one-eighth of the
assets in PEAS on a semi-annual basis to review. Personnel verify the existence of the
assets listed in the Semi-Annual Capital Property Certification Report. Personnel mark
assets as either “found” or “not found” on the report. When personnel know an asset
has previously been disposed or transferred, they are required to mark the asset as
“found,” complete a disposal or transfer form, and submit completed certification reports
and any disposal and transfer forms to their designated Asset Accountability Service
Center (AASC). AASC personnel review and sign the transfer forms and record the
transferred assets in PEAS. Personnel review and forward all the disposal forms and
completed reports with assets marked as “not found” to San Mateo Accounting
Services, where they are maintained. San Mateo Accounting Services personnel record
assets as “disposed” in PEAS based on the disposal forms. In cases where the reports
indicate the assets were not found, personnel also record these assets as “disposed” in
PEAS.

We have issued separate reports for Eagan 25 and St. Louis26 accounting services and
issued a separate financial statements audit report for headquarters. 27 Further, in
addition to the overall opinions on the Postal Service’s financial statements and internal
controls over financial reporting, the Board’s IPA issued a separate report on its
consideration of the Postal Service’s internal controls and its test of compliance with
certain provisions of laws, regulations, contracts, and other matters. The purpose of that
report was to describe the scope of testing of internal controls over financial reporting
and compliance and the results of that testing, not to provide an opinion on internal
controls over financial reporting or on compliance. 28 The OIG also issued a separate
report for the audit of FY 2013 information system controls at the Eagan, San Mateo,


22
   Other accounting services are in Eagan, MN, and St. Louis, MO.
23
   Includes accounting for inventory purchases, contract cleaners, miscellaneous disbursements, commercial credit
cards, relocation, and headquarters and field office payables.
24
   The Centralized Account Processing System is an electronic postage payment system that gives business mailers
a way to pay postage at multiple post offices through a centralized account.
25
   FY 2013 Postal Service Financial Statements Audit – Eagan Accounting Services (Report Number FT-AR-14-006,
dated February 24, 2014).
26
   FY 2013 Postal Service Financial Statements Audit – St. Louis Accounting Services (Report Number
FT-AR-14-009, dated March 20, 2014).
27
   FY 2013 Postal Service Financial Statements Audit – Washington, D.C. Headquarters (Report Number
FT-AR-14-007, dated February 21, 2014).
28
   In addition to the IPA’s work, these reports encompass work the OIG performed at headquarters, the three
solutions development and support field sites, and the Raleigh, NC, Information Technology Service Center (ITSC).


                                                        9
Fiscal Year 2013 Postal Service Financial Statements Audit –                                          FT-AR-14-010
 San Mateo Accounting Services


and St. Louis information technology and accounting service centers and the Raleigh
ITSC. 29

Objectives, Scope, and Methodology

The objectives of the audit were to determine whether San Mateo Accounting
Services: 30

    Accounting transactions were fairly stated in the general ledger, and selected key
     controls surrounding those transactions were designed and operating effectively.

    General ledger account balances conformed to the general classification of accounts
     on a basis consistent with that of the previous year.

    Complied with laws and regulations that have a direct and material effect on the
     financial statements taken as a whole.

In addition, we determined whether the FTC group properly tested, documented, and
reported its examination of key financial reporting controls.

We re-performed key control testing related to semi-annual capital property reviews.
The testing included a review of management’s desk review procedures to verify
required signatures and the completeness of the February 2013 Semi-Annual Capital
Property Certification Reports for 10 sites:

    Albia, IA, Post Office (PO).
    Cam-Porter Square, Cambridge, MA, Station.
    Chicago, IL, PDC.
    Eastern Law Office, Philadelphia, PA.
    El Paso-Northgate, TX, Station.
    Manteo, NC, PO.
    Opa-Locka, FL, PO.
    Providence-Johnston, RI, Branch.
    South Florida. Pembroke Pines, FL, PDC.
    Warminster, PA, PO.

Additionally, we contacted personnel who completed the reviews for these 10 sites to
determine whether Postal Service personnel transferred or disposed of the assets on
the reports. We also re-performed the February 2013 semi-annual capital property
review procedures at six additional sites:

    Capital CSD (Washington, D.C.).
    Colorado/Wyoming CSD (Denver, CO).

29
  FY 2013 Information Technology Internal Controls (Report Number IT-AR-14-003, dated March 26, 2014).
30
  The IPA maintains overall responsibility for testing and reviewing significant San Mateo Accounting Services
accounts and processes. The OIG coordinated audit work with the IPA to ensure adequate coverage.


                                                         10
Fiscal Year 2013 Postal Service Financial Statements Audit –                     FT-AR-14-010
 San Mateo Accounting Services


      Connecticut Valley CSD, Hartford, CT.
      Public Relations and Promotions Office, Washington, D.C.
      San Diego, CA, CSD.
      Western Pennsylvania CSD, Pittsburgh, PA.

We verified the assets listed on the February 2013 Semi-Annual Capital Property
Certification Reports for these six sites. We reviewed the complete asset listing in PEAS
for assets we were unable to locate at two sites. Furthermore, we used arbitrary
selection methods to choose 20 assets to verify the accuracy of the records in PEAS.

As part of our audit, we assessed internal controls, tested transactions, and verified
account balances. The OIG originated independent audit tests and re-performed key
control tests originally completed by the Postal Service. We conducted this audit from
November 2012 through May 2014 31 in accordance with the standards of the PCAOB
and the standards applicable to financial audits contained in the Government Auditing
Standards issued by the comptroller general of the U.S. Those standards require we
plan and perform the audit to obtain sufficient, appropriate evidence to limit audit risk to
a low level that is, in our judgment, appropriate for supporting the overall audit opinion
on financial statements. Those standards also require considering the results of
previous engagements and following up on known significant findings and
recommendations that directly relate to the audit objectives. An audit also requires a
sufficient understanding of internal controls to plan the audit and determine the nature,
timing, and extent of audit procedures to be performed. The evidence obtained provides
a reasonable basis for our conclusion based on our audit objectives.

We supported the IPA in obtaining reasonable assurance about whether the financial
statements were free of material misstatements (whether caused by error or fraud).
Absolute assurance is not attainable because of the nature of audit evidence and the
characteristics of fraud. Therefore, an audit conducted in accordance with the PCAOB
and Government Auditing Standards may not detect a material misstatement. However,
external auditors and the OIG are responsible for ensuring that appropriate Postal
Service officials are aware of any significant deficiencies that come to our attention. We
discussed our observations and conclusions with management on April 1, 2014, and
included its comments where appropriate.

We relied on computer-generated data from Postal Service financial systems, including:

      Accounting Enterprise Data Warehouse Reporting.
      CAMS.
      Centralized Account Processing System.
      National Accounting Oracle Financial Application – Oracle Accounts Payable
       System.
      Enterprise Imaging and Workflow System.
      PEAS.
      PCTS.
31
     The scope of our audit was October 1, 2012, through September 30, 2013.


                                                         11
Fiscal Year 2013 Postal Service Financial Statements Audit –                   FT-AR-14-010
 San Mateo Accounting Services



To assess the reliability of these systems’ data, we performed specific internal control
and transaction tests, including tracing selected financial information to supporting
source records. For example, we verified PCTS invoice payment amounts were
supported by contract labor rates. We determined that the data were sufficiently reliable
for the purposes of this report.

Prior Audit Coverage

                                                                  Final
                                                                 Report     Monetary
            Report Title            Report Number                 Date       Impact
  Fiscal Year 2012 Postal            FT-AR-13-006              12/20/2012     None
  Service Financial Statements
  Audit – San Mateo Accounting
  Services
  Report Results:
  We did not propose any adjustments or identify issues that were material to the
  financial statements or that would affect the overall adequacy of internal controls.
  We also found management issued Vehicle Maintenance Bulletin (VMB)
  VMB-01-12, Vehicle Maintenance Repair for Shuttling Service, which included
  procedures for reconciling monthly activity reports to the ordered vehicle
  shuttles/moves during the month. Accordingly, we considered this issue closed and
  did not make any additional recommendations.




                                                    12
Fiscal Year 2013 Postal Service Financial Statements Audit –                 FT-AR-14-010
 San Mateo Accounting Services




                                                                 Final
                                                                Report     Monetary
            Report Title              Report Number               Date      Impact
  Fiscal Year 2011 Postal              FT-AR-12-009            1/18/2012     None
  Service Financial Statements
  Audit – San Mateo Accounting
  Service Center
  Report Results:
  We did not propose any adjustments; however, we reviewed internal controls over
  financial reporting and identified two issues on contractual payables regarding
  supplier signatures and contract labor rates. Our audit of contracts from the CAMS
  found one Basic Pricing Agreement that did not include a supplier’s signature. The
  IPA informed management of the issues on November 1, 2011. We also found that
  management implemented a program to review relocation expenses. Accordingly,
  we consider this issue closed. Furthermore, management did not issue a VMB
  addressing procedures for documenting and reconciling monthly U.S. Auto Club
  invoices prior to payment. We did not make any additional recommendations.

  Fiscal Year 2010 Postal             FT-AR-11-008       4/7/2011          $75,838
  Service Financial Statements
  Audit – San Mateo Information
  Technology and Accounting
  Service Center
  Report Results:
  The Postal Service did not review supporting documentation for relocation services
  as part of the payment process, and personnel at a vehicle maintenance facility
  were not adequately reviewing or maintaining supporting documentation for shuttle
  services prior to payment. We also identified control deficiencies regarding vehicle
  sales requests and eBuy purchases. Management agreed to conduct an annual
  sampling of invoices to review supporting documentation for relocation services and
  to develop and implement a standard operating procedure for review and retention
  of U.S. Auto Club invoices prior to payment.




                                                    13
Fiscal Year 2013 Postal Service Financial Statements Audit –                                          FT-AR-14-010
 San Mateo Accounting Services


                                       Appendix B: Other Impacts

          Recommendation                            Impact Category                         Amount
               3,4,6                                 Data Integrity 32                     $1,114,829
                 5                                    Data Integrity                       $1,894,665
               Total                                                                       $3,009,494

The data integrity amount for recommendations 3, 4, and 6 is the total acquisition cost
for the 122 assets recorded in PEAS that we identified as inaccurate, incomplete, and
unverified for FY 2013. The undepreciated value of the assets was about $48,000 as of
February 2013.

The data integrity amount for recommendation 5 is the total acquisition cost for the
371 vending machines recorded in PEAS that we identified as obsolete. The vending
machines were fully depreciated as of August 2013.




32
  Validation of the consistency, accuracy, and completeness of data used by the Postal Service. Data used to
support management decisions that are not fully supported or completely accurate. This can be the result of flawed
methodology; procedural errors; or missing or unsupported facts, assumptions, or conclusions.


                                                         14
Fiscal Year 2013 Postal Service Financial Statements Audit –    FT-AR-14-010
 San Mateo Accounting Services


                            Appendix C: Management’s Comments




                                                    15
Fiscal Year 2013 Postal Service Financial Statements Audit –   FT-AR-14-010
 San Mateo Accounting Services




                                                    16
Fiscal Year 2013 Postal Service Financial Statements Audit –   FT-AR-14-010
 San Mateo Accounting Services




                                                    17
